2311 Douglas Street

C@OCKLE

Legal Briefs E-Mail Address:

Omaha, Nebraska 68102-1214 Est. 1923 contact@cocklelegalbriefs.com
1-800-225-6964 Web Site
(402) 342-2831 www.cocklelegalbriefs.com
Fax: (402) 342-4850 No. 19-
GEORGE LEE NOBLES,
Petitioner,
Vv.
NORTH CAROLINA,
Respondent.
AFFIDAVIT OF SERVICE

I, Andrew Cockle, of lawful age, being duly sworn, upon my oath state that I did, on the 24th day of July, 2020, send out
from Omaha, NE | package(s) containing 3 copies of the PETITION FOR A WRIT OF CERTIORARI in the above entitled
case. All parties required to be served have been served by Priority Mail. Packages were plainly addressed to the following:

SEE ATTACHED

To be filed for:
GLENN GERDING STUART BANNER
ANNE M. GOMEZ Counsel of Record
Office of the Appellate UCLA School of Law
Defender Supreme Court Clinic
123 W. Main St. 405 Hilgard Ave.
Suite 500 Los Angeles, CA 90095
Durham, NC 27701 (310) 206-8506

banner@law.ucla.edu

Subscribed and sworn to before me this 24th day of July, 2020.
T am duly authorized under the laws of the State of Nebraska to administer oaths.

arr eren| Kevee. 0. Lino? Ondhao bh. Chole

Notary Public Affiant 39902

My Comm. Exp. September 5, 2023,

 

 
Counsel for Respondent

Amy Kunstling Irene

North Carolina Department of Justice
P.O. Box 629

Raleigh, NC 27602

(919) 716-6500

airene@ncdoj.gov
